                                                   NATIONAL SCIENCE FOUNDATION
                                               .    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTI~ATIONS

                                             CLOSEOUT MEMORANDUM

     Case Number: A-04020005
                                                                                  11          Page 1 of I



                 We received an allegation concerning a declined proposal.1 It was alleged that the
          proposal sought funding for work the PI had already done, as reported in a paper.2

                  There was substantial duplication of the text in the paper in the proposal. However, the
          proposal made it clear that it was seeking funding to build on the earlier work. The proposal
          cited the paper at the beginning of the "Preliminary Results" section, and that section of the
          proposal discussed the results reported in the paper at substantial length. The paper was also the
          second one listed in the proposal under "Five Related Publications." Two of the reviews noted
          the earlier work.

                 Because the earlier work was fully disclosed and discussed in the proposal, there is no
          evidence suggesting any intent to mislead and it is highly unlikely anyone would have been
          misled. The extensive quantity of duplication of the paper in the proposal reflects poorly on the
          novelty of the proposal, but does not implicate a significant ethical concern. Accordingly, this




I'
 NSF OIG Form 2 (1 1/02)
